No.

IN THE
SUPREME COURT OF THE UNITED STATES

Kevin Thurlow
vs.
Warden, N.H. State Prison

PROOF OF SERVICE
I, Kevin Thurlow, do swear or declare that on this date, Fkb£uft£f4

^ , 2021,

as required by the Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each: party .to the
above proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them as required.
Party's counsel: New Hampshire Attorney General
Criminal Justice Bureau
33 Capitol Street
Concord, New Hampshire

03301-6397

I declare under penalty of perjury that the foregoing is true and correct.
Executed on
, 2021

Kevin Thurlow, pro se Litigant

